4a
I

C@OCKLE

2311 Douglas Street L eg al B rie f 8 E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-402

HOWARD L. BALDWIN and KAREN E. BALDWIN,
Petitioners,

v.
UNITED STATES OF AMERICA,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 23rd day of October, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF AMICUS CURIAE OF GOLDWATER INSTITUTE IN

SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served by Priority Mail.
Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

TIMOTHY SANDEFUR*

SCHARF-NORTON CENTER FOR
CONSTITUTIONAL LITIGATION
AT THE GOLDWATER INSTITUTE

500 E. Coronado Rd.

Phoenix, AZ 85004

(602) 462-5000

litigation@goldwaterinstitute.org

*Counsel of Record

Counsel for Amicus Curiae
Goldwater Institute

Subscribed and sworn to before me this 23rd day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

con,  E Ellie Qudoaw-h, Bale

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38893
 

Attorneys for Petitioners

Aditya Dynar New Civil Liberties Alliance
Counsel of Record Litigation Counsel
1225 19th Street NW, Suite 450
Washington, DC 20036

adi.dynar@ncla.onmicrosoft.com

Party name: Howard Baldwin, et al.

 

 

Attorneys for Respondent

Noel J. Francisco Solicitor General
Counsel of Record United States Department of Justice
Room 5616

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Party name: United States of America

 

 
